Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




TRENDS IN THE ASSIGNMENT OF
   RESOURCE UTILIZATION
          GROUPS




                    Inspector General

                     November 2003
                    OEI-01-03-00180
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits ex amine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagemen t and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�   A B S T R A C T 





                                   Based on our analysis of data from January 1999 to December 2002,
                                   minimal shifts occurred in the assignment of resource utilization groups
                                   corresponding to legislative payment changes to skilled nursing
                                   facilities. The rehabilitation category, the largest of the seven resource
                                   utilization group categories, remained stable. However, assignment to
                                   the rehabilitation subcategories shifted parallel to the reimbursement
                                   changes of the Balanced Budget Refinement Act and the Medicare,
                                   Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000.
                                   In addition, small changes occurred in other categories, including
                                   extensive care, special care, and clinically complex. As of October 1,
                                   2002, all temporary payment adjustments ended, and any payment
                                   incentives that may have existed concluded at that time.




     O E I - 01 - 03 - 0 0 1 8 0        TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                i
�   E X E C U T I V E                                     S U M M A R Y 



                                   OBJECTIVE
                                   To identify changes in the proportion of Medicare beneficiaries assigned
                                   to each resource utilization group in skilled nursing facilities between
                                   January 1999 and December 2002, given legislative changes in
                                   reimbursement levels.


                                   BACKGROUND
                                   The Balanced Budget Act of 1997 changed Medicare reimbursement for
                                   skilled nursing facilities from a cost based to a prospective payment
                                   system (PPS). Under PPS, skilled nursing facilities are required to
                                   assign residents to 1 of 44 resource utilization groups (RUGs), which are
                                   calculated based on a clinical assessment tool.
                                   In the fall of 1999, Congress enacted the Balanced Budget Refinement
                                   Act (BBRA), which included a 4 percent across-the-board increase in
                                   payments to skilled nursing facilities for fiscal years 2001 and 2002 and
                                   a temporary 20 percent increase to 15 RUGs for resident conditions
                                   considered medically complex. These included three individual RUGs in
                                   the special rehabilitation category (RMB, RHC, and RMC) as well as all
                                   the RUGs in three of the seven RUG categories (clinically complex,
                                   special care, and extensive care categories). The changes went into
                                   effect on October 1, 2000. In the fall of 2000, Congress further adjusted
                                   the payment rates under the Medicare, Medicaid, and SCHIP Benefits
                                   Improvement and Protection Act (BIPA), which became effective on
                                   April 1, 2001.
                                   Congress mandated in Section 314 of BIPA that the Office of Inspector
                                   General (OIG) review, no later than October 1, 2001, the Medicare
                                   payment structure for services to assess whether payment incentives exist
                                   for the delivery of inadequate care. In response, OIG released Trends in
                                   the Assignment of Resource Utilization Groups by Skilled Nursing
                                   Facilities (OEI-02-01-00280) in July 2001, which analyzed the changes in
                                   RUG assignments from January 1999 to March 31, 2001. This current
                                   inspection analyzes data post-BIPA through December 2002.
                                   This inspection is based on an analysis of the Centers for Medicare &
                                   Medicaid Services’s National Claims History File. We analyzed the
                                   admission RUG code for all residents by quarter from January 1999 to
                                   December 2002.



     O E I - 01 - 03 - 0 0 1 8 0        TRENDS   IN THE   AS S I G N M E N T   OF   R U GS               ii
E   X   E      C      U       T       I    V   E    S      U      M       M       A        R    Y




                                          FINDINGS
                                          Minimal shifts occurred in the assignment of resource utilization
                                          groups since the prospective payment system (PPS)
                                          implementation.
                                          While the overall rehabilitation category has remained largely unchanged,
                                          the assignment to rehabilitation subcategories did shift. Nursing homes
                                          can classify residents into one of seven categories: rehabilitation,
                                          extensive care, special care, clinically complex, cognitively impaired,
                                          behavior problems, and reduced physical functions. Since the
                                          implementation of PPS in 1999, the mix of residents classified into the
                                          rehabilitation RUG category, the largest of all seven categories,
                                          remained about the same. In the fourth quarter of 2002, 77 percent of
                                          all Medicare residents were assigned to 1 of the 14 rehabilitation RUGs,
                                          which was a 0.6 percent increase since the first quarter of 1999. In
                                          addition, during that time period, the percentage of nursing home
                                          residents assigned to the rehabilitation category fluctuated by only
                                          about 1 percent.
                                          While the proportion of Medicare residents assigned to all 14 of the
                                          rehabilitation RUGs remained constant, the subcategories within the
                                          rehabilitation RUG category shifted at the same time as the
                                          reimbursement changes from BBRA and BIPA. The rehabilitation
                                          RUGs are broken down into five subcategories based on the number of
                                          minutes of physical or occupational therapy required: ultra high, very
                                          high, high, medium, and low. The proportion of Medicare residents in
                                          the rehabilitation category assigned to the high subgroup steadily
                                          increased 8 percent from January 1999 to December 2002. The
                                          proportion of residents assigned to the medium subcategory increased
                                          until the shift in payment under BIPA in 2001. At the same time, the
                                          proportion of residents assigned to the combined ultra high, very high,
                                          and low subgroups decreased. After BIPA changes spread out the specific
                                          increases from 3 RUGs to all 14 rehabilitation RUGs, the declining trend
                                          reversed, and the medium, ultra high, very high, and low subcategories
                                          began to increase.
                                          Small changes seen in the other categories, including extensive care,
                                          special care, and clinically complex. The proportion of Medicare
                                          residents assigned to the remaining three RUG categories affected by
                                          BBRA and BIPA (extensive care, special care, and clinically complex)


        O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                 iii
E   X   E      C      U       T       I    V   E    S      U      M       M       A        R    Y



                                          experienced minimal shifts since PPS was introduced. The extensive
                                          care category increased from about 13 percent in the first quarter of
                                          1999 to about 15 percent. Special care and clinically complex each
                                          decreased by about 1 percent. The shift in trends for these 3 categories
                                          appears to be unrelated to either BBRA or BIPA payment increases
                                          because all 3 categories steadily increased or decreased from the first
                                          quarter of 1999. In addition, the law did not create payment incentives
                                          to code residents in one RUG or RUG category over another, because all
                                          were increased uniformly.
                                          Underlying resident demographics do not explain the minimal resource
                                          utilization group assignment shifts. We analyzed gender, race, age, and
                                          reason for Medicare eligibility from January 1999 to December 2002.
                                          We found no substantial shifts in the demographics of Medicare
                                          residents in nursing homes assigned to RUGs in that time period.




                                          SUMMARY
                                          The analysis showed that shifts did occur in the proportion of Medicare
                                          nursing home residents assigned to RUG categories and subcategories
                                          corresponding to payment changes. However, the changes were small in
                                          magnitude and focused only in the rehabilitation RUGs. In addition, all
                                          payment changes ended on October 1, 2002, and any payment
                                          incentives that may have existed concluded at that time. This report
                                          fulfills the legislative mandate that the OIG assess whether payment
                                          incentives existed for the delivery of inadequate care in skilled nursing
                                          facilities.




        O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS              iv
�   T A B L E         O F             C O N T E N T S 




           A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



           EXECUTIVE SUMMARY ........................................ ii



           I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




           F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                       Minimal shifts in assignment of RUGs ............................................. 5




           SUMMARY ...................................................... 10




           APPENDICES .................................................. 11

                       A: List of RUGs ................................................................................ 11


                       B: Proportion of residents in RUG categories.................................. 12


                       C: Proportion of residents in rehab subcategories........................... 13


                       B: Proportion of residents in each RUG .......................................... 14





           ACKNOWLEDGMENTS ......................................... 18

�   I N T R O D U C T I O N 



                                   OBJECTIVE
                                   To identify changes in the proportion of Medicare beneficiaries assigned
                                   to each resource utilization group in skilled nursing facilities between
                                   January 1999 and December 2002, given legislative changes in
                                   reimbursement levels.


                                   BACKGROUND
                                   Medicare Payments to Skilled Nursing Facilities
                                   Medicare Part A helps pay for skilled nursing facility (SNF) care when a
                                   beneficiary meets certain conditions. These conditions include a
                                   requirement of daily skilled nursing or rehabilitative services, a prior 3-
                                   day consecutive stay in a hospital, admission to a SNF within a short
                                   period of time after leaving the hospital, treatment for the same condition
                                   that was treated in the hospital, and a medical professional certifying the
                                   need for daily skilled nursing or rehabilitative care. Medicare limits the
                                   number of covered SNF days to 100 days per benefit period, with a co­
                                   payment required for days 21 through 100. After the Medicare 100-day
                                   SNF Part A benefit runs out, the Medicare Part B benefit continues to
                                   pay for physician services and other Part B covered services.
                                   In order to control escalating nursing home costs, the Balanced Budget
                                   Act (BBA) of 1997 changed SNF reimbursement from a cost-based to a
                                   prospective payment system (PPS). Beginning with the first cost-
                                   reporting period after July 1, 1998, Medicare began paying SNFs
                                   through a prospective, case-mix adjusted per-diem payment that covers
                                   routine, ancillary, and capital-related costs, including most items and
                                   services for which payment was previously made under Medicare Part
                                   B. The per-diem payment is based on fiscal year (FY) 1995 Part A and
                                   B costs, adjusted using three elements: the SNF market basket index,
                                   which reflects changes over time in the prices of an appropriate mix of
                                   goods and services included in the covered SNF services; the case-mix
                                   from resident assessments; and geographic wage variations.
                                   To determine the case-mix, SNFs classify residents into 1 of 44 resource
                                   utilization groups (RUGs). To do this, SNFs must complete the
                                   Minimum Data Set (MDS) assessment, a standardized set of clinical
                                   and functioning status measures. An interdisciplinary team from the
                                   nursing home completes the MDS for each resident by the 5th, 14th,
                                   30th, 60th, and 90th days of his/her stay.



     O E I - 01 - 03 - 0 0 1 8 0        TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                1
I   N   T    R       O      D         U    C   T   I   O   N



                                          RUGs are divided into seven major categories: special rehabilitation,
                                          extensive services, special care, clinically complex, impaired cognition,
                                          behavior problems, and reduced physical function. Each RUG is
                                          associated with a payment rate that is based on a number of factors,
                                          such as the need for therapy and the level of functioning measured in
                                          terms of the activities of daily living (ADL). Medicare does not typically
                                          reimburse SNFs for residents in the last three categories because the
                                          resident usually does not require skilled care (see Appendix A).
                                          Nursing homes assign residents requiring physical or occupational
                                          therapy to a RUG in the special rehabilitation category. Each resident
                                          is classified in a subcategory depending on the number of therapy
                                          minutes required in the last 7 days, as indicated on the MDS. There are
                                          5 special rehabilitation subcategories: ultra-high (over 720 minutes),
                                          very high (500 to 719 minutes), high (325 to 499 minutes), medium (150
                                          to 324 minutes), and low (45 to 149 minutes). The nursing home then
                                          assigns each resident to a specific RUG within these subcategories
                                          depending on the level of self-performance and support needed with four
                                          ADLs: eating, bed mobility, toileting, and transfers. The score on the
                                          MDS for these four ADLs places the resident into a specific RUG.
                                          Legislative Changes
                                          In the fall of 1999, Congress enacted the Balanced Budget Refinement
                                          Act (BBRA) in response to providers’ concerns that reductions in
                                          payment under BBA were too severe. BBRA included a 4 percent
                                          across-the-board increase in payments to SNFs for FYs 2001 and 2002
                                          and a temporary 20 percent increase to 15 RUGs for patient conditions
                                          considered medically complex. These included all the RUGs in the
                                          clinically complex, special care, and extensive care categories as well as
                                          three RUGs in the medium and high subcategories of the special
                                          rehabilitation category (RMB, RHC, and RMC). In addition, several
                                          costly non-therapy ancillary services, including certain ambulance
                                          services, prostheses, and chemotherapy drugs, were excluded from PPS
                                          and paid for separately. BBRA changes went into effect on October 1,
                                          2000.
                                          In 2000, Congress further adjusted the payment rates under the
                                          Medicare, Medicaid, and SCHIP Benefits Improvement and Protection
                                          Act (BIPA). These changes went into effect on April 1, 2001. BIPA
                                          increased the inflation update to the full market basket in FY 2001 and
                                          raised the nursing component of the RUGs by 16.6 percent in an effort
                                          to improve PPS nursing staff ratios. Additionally, BBRA’s 20 percent


        O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                2
I   N   T    R       O      D         U    C   T   I   O   N



                                          increase to the 3 rehabilitation RUGs was spread across all 14 special
                                          rehabilitation RUGs as a 6.7 percent increase. The other RUGs affected
                                          in the BBRA maintainted the 20 percent increase.
                                          As of October 1, 2002, all payment adjustments ended. (See Figure 1)



                                          Figure 1: Legislative Timeline




                   January 1999                         Oct 1, 2000                             April 1, 2001   Oct. 1, 2002
                        PPS                               BBRA                                     BIPA              BIPA
                   implemented                         implemented                              implemented       temporary
                     for SNFs                                                                                    adjustments
                                                                                                                    ended




                                          Previous OIG Inspections
                                          Congress mandated in Section 314 of BIPA that the Office of Inspector
                                          General (OIG) review, no later than October 1, 2001, “the Medicare
                                          payment structure for services classified within the rehabilitation RUGs
                                          to assess whether payment incentives exist for the delivery of
                                          inadequate care.” In response, OIG released Trends in the Assignment
                                          of Resource Utilization Groups by Skilled Nursing Facilities (OEI-02-01-
                                          00280) in July 2001, which analyzed the changes in RUG assignments
                                          from January 1999 to March 31, 2001. The report found no major
                                          changes in RUG assignment since the implementation of PPS.
                                          However, since the implementation of PPS in January 1999, small
                                          shifts occurred in the proportion of residents assigned to the RUGs
                                          within the rehabilitation category. Our analysis in that report was
                                          limited because BIPA changes were not implemented until April 2001.


                                          METHODOLOGY
                                          Using the Centers for Medicare & Medicaid Services’s (CMS’s) National
                                          Claims History File, we examined claims processed through March 2003
                                          for all Medicare beneficiaries who were admitted to a SNF between
                                          January 1, 1999, and December 2002. We reviewed the RUG code
                                          generated from the MDS assessment conducted at admission (types 01,




        O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                              3
I   N   T    R       O      D         U       C    T   I   O    N


                                          11, 19, 31,and 41) that is on the provider claim. 1 We analyzed the
                                          proportion of Medicare beneficiaries in each of the 44 RUG codes and in
                                          each of the 7 RUG categories by quarter beginning in 1999.
                                          Second, we examined select characteristics of Medicare beneficiaries in
                                          our analysis. We analyzed the CMS enrollment data, including
                                          beneficiaries’ age, race, gender, and reason for eligibility to assess
                                          whether changes in these characteristics are associated with trends in
                                          the RUGs.
                                          Data Limitations
                                          The data used in this analysis may change based on additional and 

                                          adjusted claims submitted over the next several quarters. Data 

                                          reported in the original report have been updated, and therefore, do not 

                                          match the numbers in this report. In seven of the nine quarters of 

                                          original data, the total number of assessments differed by 3 percent or 

                                          less. In addition, we included admission assessment types 19, 31, and 

                                          41 in this analysis to capture all admission assessments where we only 

                                          analyzed admission assessment types 01 and 11 in the previous report. 

                                          However, assessment codes 01 and 11 represent 97 percent of all 

                                          admission codes. Since the first report, we have learned of these three 

                                          special situation or adjustment codes that are able to replace the 5-day 

                                          assessment.


                                          Standards 

                                          We conducted this inspection in accordance with the Quality Standards 

                                          for Inspections issued by the President’s Council on Integrity and 

                                          Efficiency.





                                          1   01: 5-day Medicare required assessment/not an admission assessment
                                              11: 5-day Medicare required assessment and admission assessment
                                              19: 5-day assessment: special payment situation
                                              31: Significant change assessment/replaces 5-day assessment
                                              41: Significant correction of prior assessment: replaces 5-day assessment



        O E I - 01 - 03 - 0 0 1 8 0                 TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                    4
�     F I N D I N G S 




    Minimal shifts occurred in the assignment of
                    resource utilization groups since the
                         prospective payment system (PPS)

                                        While the overall rehabiliatation category has remained largely unchanged, 

                                        the assignment to rehabilitation subcategories did shift.

                                        Rehabilitation Category. Since the implementation of PPS in 1999, the 

                                        mix of residents classified into the rehabilitation RUG category 

                                        remained about the same. Nursing homes can classify residents into 

                                        one of seven categories: rehabilitation, extensive care, special care, 

                                        clinically complex, cognitively impaired, behavior problems and reduced 

                                        physical functions. The last three categories are grouped under 

                                        custodial care, and Medicare generally does not cover these services 

                                        because the resident usually does not require skilled care. Medicare 

                                        reimburses on a hierarchical system with the rehabilitation category 

                                        being the highest (see Appendix A). 




    Table 1: Proportion of Medicare Residents in each RUG Category

                                                                                                                     Oct-Dec 2002            Percentage
                                                                Oct-Dec 2000                   Apr-Jun 2001           (Changes              Point Change
       RUG Category                     Jan-Mar 1999              (BBRA)                          (BIPA)                ended)               1999-2002

    Rehabilitation                         76.3%                    76.5%                          76.7%                  76.9%                  0.6%

    Extensive Care                          12.8                      13.4                         13.5                    14.5                   1.7

    Special Care                            5.6                        5.0                          4.9                    4.2                    -1.4

    Clinically Complex                      3.8                        3.3                          3.1                    2.6                    -1.2

    Custodial Care                          1.4                        1.7                          1.7                    1.8                    0.4

    Note: Percentages do not add to 100 due to rounding	                                     Source: Office of Evaluation and Inspections (OEI) analysis of
                                                                                             National Claims History File, July 2003




          O E I - 01 - 03 - 0 0 1 8 0         TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                                              5
F   I   N    D       I    N       G   S


                                      In the fourth quarter of 2002, 77 percent of all Medicare residents were
                                      assigned to 1 of the 14 rehabilitation RUGs, which was a 0.6 percent
                                      increase since the first quarter of 1999 (see Table 1). In addition,
                                      during that time period, the percentage of nursing home residents
                                      assigned to the rehabilitation category fluctuated by only about 1
                                      percent (see Appendix B).
                                      Rehabilitation Subcategories. While the proportion of Medicare
                                      residents assigned to all 14 of the rehabilitation RUGs remained
                                      constant, the subcategories within the rehabilitation RUG category
                                      shifted at the same time as the reimbursement changes from BBRA and
                                      BIPA. The rehabilitation RUGs are broken down into five subcategories
                                      based on the number of minutes of therapy required: ultra high, very
                                      high, high, medium, and low. The proportion of Medicare residents in
                                      the rehabilitation category assigned to the high subgroup steadily
                                      increased from 48 percent in the first quarter of 1999 to about 56
                                      percent of all rehabilitation RUGs in the second quarter of 2001. At
                                      that point the high category remained stable until December 2002. The
                                      proportion of residents assigned to the medium subcategory increased
                                      until the shift in payment under BIPA in 2001.
                                      At the same time, the proportion of residents assigned to the combined
                                      ultra high, very high, and low subgroups decreased (see Chart 1 on the
                                      following page). All the individual RUGs in these three subcategories were
                                      uniformly adjusted with BBRA and BIPA and follow very similar trends to
                                      one another. After BIPA changes spread out the specific increases from 3
                                      RUGs to all 14 rehabilitation RUGs, the declining trend reversed, and the
                                      medium, ultra high, very high, and low subcategories began to increase
                                      (see Appendix C).




        O E I - 01 - 03 - 0 0 1 8 0        TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                6
F     I   N        D        I   N         G   S


CHART #1
Proportion of Medicare Residents in Rehabilitation Subgroups


      0.6

      0.5
                                                                                                                         High
      0.4
                                                                                                                         Medium
      0.3

      0.2                                                                                                                Ultra High,
                                                                                                                         Very High,
      0.1                                                                                                                Low
          0
                   Q1 '99

                                 Q3 '99

                                              Q1 '00

                                                        Q3 '00

                                                                    Q1 '01

                                                                                    Q3 '01

                                                                                                   Q1 '02

                                                                                                                Q3 '02

                                     th
    Note: BBRA effectiv e 4 quarter 2000 (October 1, 2000) through 2nd quarter 2001 (March 31,
                           rd                                     rd
    2001). BIPA effective 3 quarter 2001 (April 1, 2001) through 3 quarter 2002 (September 30,
    2002). All temporary adjustments ended as of October 1, 2002.

    Source: OEI analysis of National Claims History File, July 2003




                                              Individual rehabilitation resource utilization groups. The trend for the
                                              three RUGs (RMB, RMC, and RHC) whose payment structure was
                                              changed by BBRA and BIPA showed shifts that coincide with those
                                              reimbursement changes. Twenty percent of all Medicare residents were
                                              assigned to RHC (high subcategory) in the fourth quarter of 2002,
                                              making it the largest of all 44 RUGs. The proportion of residents coded
                                              in RHC increased steadily from 15 percent in the first quarter 1999 to
                                              20 percent in the fourth quarter in 2002. The two RUGs in the medium
                                              subcategory, RMB and RMC, followed similar patterns to each other by
                                              increasing to hit a peak as BBRA changes went into effect, and then
                                              decreasing when BIPA rescinded those increases (see Table 2). (See
                                              Appendix D for a complete listing of RUGs by quarter.)




              O E I - 01 - 03 - 0 0 1 8 0              TRENDS    IN THE      AS S I G N M E N T   OF   R U GS                          7
                              Table 2: Trend in the Proportion of Medicare Residents in 3 RUGs

                              S                                                                                         Oct-Dec 2002
                              m                                             Jan-Mar          Oct-Dec     Apr-Jun 2001    (Changes
                              Rehabilitation RUGs                            1999          2000 (BBRA)      (BIPA)         ended)
                              a
                              RHC                                                15.0%          18.9%          18.8%          19.9%

                              RMB                                                    8.2           9.4            8.7            7.3

                              RMC                                                    5.0           5.5            5.3            5.0

                              Source: OEI analysis of National Claims History File, July 2003




                              Small changes seen in the other catgories including extensive care, special
                              care, and clinically complex.
                              The proportion of Medicare residents assigned to the remaining three
                              RUG categories affected by BBRA and BIPA (extensive care, special
                              care, and clinically complex) experienced minimal shifts since PPS was
                              introduced. The shift in trends for these three categories appears to be
                              unrelated to either BBRA or BIPA payment increases because all three
                              categories steadily increased or decreased from the first quarter of 1999.
                              In addition, neither law created payment incentives to code residents in
                              one RUG or RUG category over another, because all were increased
                              uniformly. However, the extensive care has always been the most
                              highly reimbursed of the three non-rehabilitative RUG categories, and
                              this may explain some of the gradual increase seen in that category
                              since 1999. The extensive care category had the largest shift in the
                              proportion of residents assigned to those RUGs and increased from
                              about 13 percent in the first quarter of 1999 to about 15 percent.
                              Special care and clinically complex each decreased by about 1 percent
                              (see Chart 2).




O E I - 01 - 03 - 0 0 1 8 0          TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                          8
F    I    N     D       I    N         G    S



    CHART #2:
    Trend in the Proportion of Medicare
    Residents in RUG Categories


         16.0%
         14.0%
         12.0%
         10.0%                                                                                                   Extensive Care

         8.0%                                                                                                    Special Care
         6.0%
                                                                                                                 Clinically
         4.0%                                                                                                    Complex
                                                                                                                 Custodial Care
         2.0%
         0.0%
                '99

                              '99




                                                              '01

                                                                          '01




                                                                                                           '03
                                            '00

                                                     '00




                                                                                      '02

                                                                                                    '02
            1

                             3




                                                            1

                                                                       3




                                                                                                           1
                                         Q1

                                                  Q3




                                                                                   Q1

                                                                                                 Q3
           Q

                            Q




                                                           Q

                                                                      Q




                                                                                                          Q

                                  th
    Note: BBRA effective 4 quarter 2000 (October 1, 2000) through 2nd quarter 2001 (March 31,
                                   rd                                             rd
    2001). BIPA effective 3 quarter 2001 (April 1, 2001) through 3 quarter 2002 (September 30,
    2002). All temporary adjustments ended as of October 1, 2002.

    Source: OEI analysis of National Claims History File, July 2003




                                           Underlying resident demographics do not explain the minimal resource
                                           utilization group (RUG) assignment.
                                           We analyzed gender, race, age, and reason for Medicare eligibility from
                                           January 1999 to December 2002, and found no substantial shifts in the
                                           demographics of Medicare residents in nursing homes assigned to RUGs
                                           in that time period. For example, the mean age of Medicare residents
                                           remained about 80 years with a range of 0.4 years over 16 quarters of
                                           data.




           O E I - 01 - 03 - 0 0 1 8 0             TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                             9
�   S U M M A R Y 


                                  The analysis showed that shifts did occur in the proportion of Medicare
                                  nursing home residents assigned to RUG categories and subcategories
                                  corresponding to payment changes. However, the changes were small in
                                  magnitude and focused only in the rehabilitation RUGs. In addition, all
                                  payment changes ended on October 1, 2002, and any payment
                                  incentives that may have existed concluded at that time. This report
                                  fulfills the legislative mandate that the OIG assess whether payment
                                  incentives existed for the delivery of inadequate care in skilled nursing
                                  facilities.




    O E I - 01 - 03 - 0 0 1 8 0        TRENDS   IN THE   AS S I G N M E N T   OF   R U GS             10
�   A P P E N D I X                          ~           A 





     O E I - 01 - 03 - 0 0 1 8 0   TRENDS   IN THE   AS S I G N M E N T   OF   R U GS   11

�   A P P E N D I X                             ~           B 



     The Proportion of Medicare Beneficiaries in Each RUG Category



          RUG Category
                                   Q1 ‘99      Q2 ‘99            Q3 ‘99              Q4 ‘99   Q1 ‘00    Q2 ‘00    Q3 ‘00    Q4 ‘00

            Rehab                  76.3%       76.7%             76.8%              76.0%     75.9%     76.0%     76.2%     76.5%
            Extensive               12.8        12.8              12.8               13.5      13.7      13.3      13.3      13.4
            Care
            Special Care            5.6          5.4                5.4               5.4       5.3       5.3       5.3       5.0
            Clinically              3.8          3.5                3.4               3.4       3.5       3.5       3.4       3.3
            Complex
            Cognitively             0.3          0.3                0.3               0.4       0.4       0.4       0.4       0.4
            Impaired
            Behavior                0.0          0.0                0.0               0.1       0.1       0.1       0.1       0.0
            Problems
            Reduced                 1.1          1.1                1.1               1.2       1.1       1.3       1.3       1.3
            Physical
            Function

            Total Number 427,351               418,258         411,465             427,873    485,122   438,619   428,079   428,467
            of
            Beneficiaries




          RUG Category
                                   Q1 ‘01      Q2 ‘01            Q3 ‘01              Q4 ‘01   Q1 ‘02    Q2 ‘02    Q3 ‘02    Q4 ‘02

            Rehab                  76.8%       76.7%             76.8%              76.7%     76.8%     76.9%     76.8%     76.9%
            Extensive               13.5        13.5              13.6               13.9      14.2      14.1      14.2      14.5
            Care
            Special Care            4.9          4.9                4.7               4.6       4.4       4.4       4.4       4.2
            Clinically              3.1          3.1                2.9               2.9       2.8       2.8       2.7       2.6
            Complex
            Cognitively             0.4          0.4                0.5               0.4       0.4       0.5       0.5       0.5
            Impaired
            Behavior                0.1          0.1                0.1               0.1       0.1       0.1       0.1       0.1
            Problems
            Reduced                 1.2          1.2                1.2               1.3       1.1       1.2       1.2       1.2
            Physical
            Function

            Total Number 481,851               459,049         438,031             453,335    507,011   475,821   468,006   522,803
            of
            Beneficiaries

       Source: OEI analysis of National Claims History File, July 2003




     O E I - 01 - 03 - 0 0 1 8 0      TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                            12

�   A P P E N D I X                             ~           C 



      Proportion of Medicare Beneficiaries in Each Rehabilitation Subcategory


          REHAB
      SUBCATEGORIES                Q1 ‘99       Q2 ‘99            Q3 ‘99             Q4 ‘99   Q1 ‘00    Q2 ‘00    Q3 ‘00    Q4 ‘00

        Ultra High                  8.6%        7.4%               6.6%              5.6%      5.2%      5.1%      4.9%      4.3%
        Very High                   20.9        20.3               20.1              19.0      18.6      17.7      17.4      16.1
        High                        48.1        50.0               51.0              52.7      53.1      53.7      54.0      55.2
        Medium                      21.7        21.7               21.9              22.2      22.6      23.2      23.3      24.0
        Low                          0.7         0.6                0.5               0.5       0.4       0.4       0.4       0.4

        Total Number               326,021     321,009          315,852 325,367               368,135   333,495   326,010   327,592
        of Rehab
        Beneficiaries



          REHAB
      SUBCATEGORIES                Q1 ‘01       Q2 ‘01            Q3 ‘01             Q4 ‘01   Q1 ‘02    Q2 ‘02    Q3 ‘02    Q4 ‘02

        Ultra High                  4.6%        4.6%               4.9%              4.8%      5.2%      5.3%      5.6%      5.4%
        Very High                   16.4         16.9               17.2              17.2     18.2      18.5      19.1      18.8
        High                        55.2         55.7               55.7              56.0     55.4      55.6      55.2      55.9
        Medium                      23.4         22.5               21.9              21.7     21.0      20.4      19.8      19.6
        Low                         0.3          0.3                0.3               0.3      0.2       0.3       0.2       0.2


        Total Number               369,957     352,128          336,483 347,693               389,190   366,065   359,615   402,183
        of Rehab
        Beneficiaries
     Source: OEI analysis of National Claims History File, July 2003




     O E I - 01 - 03 - 0 0 1 8 0      TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                            13

�     A P P E N D I X                                ~           D 



 The Proportion of Medicare Beneficiaries in Each RUG at Admission by Quarter


                                          Calendar Year
                                               1999                                                       Calendar Year 2000
 RUG                          Q1 '99     Q2 '99 Q3 '99                      Q4 '99              Q1 '00     Q2 '00    Q3 '00    Q4 '00
 RUA                          1.2%       1.0%      0.9%                     0.7%                0.7%       0.6%      0.6%      0.5%
 RUB                            4.3        3.8      3.3                      2.9                  2.6        2.5       2.5       2.2
 RUC                            1.1        0.9      0.8                      0.7                  0.7        0.7       0.6       0.5
 RVA                            3.9        3.7      3.6                      3.2                  3.3        3.2       3.1       2.8
 RVB                           10.0       10.0      9.9                      9.4                  9.1        8.7       8.7       8.1
 RVC                            2.0        2.0      1.9                      1.8                  1.7        1.6       1.5       1.4
 RHA                            6.0        6.1      6.1                      6.0                  6.2        6.1       6.0       6.0
 RHB                           15.7       16.5     16.8                      17.2                17.2       17.2      17.3      17.3
 RHC                           15.0       15.8     16.3                      16.9                16.9       17.5      17.8      18.9
 RMA                            3.4        3.3      3.4                      3.3                  3.4        3.5       3.4       3.4
 RMB                            8.2        8.3      8.3                      8.4                  8.5        8.9       9.1       9.4
 RMC                            5.0        5.0      5.2                      5.2                  5.3        5.3       5.3       5.5
 RLA                            0.3        0.3      0.2                      0.2                  0.2        0.2       0.2       0.2
 RLB                            0.2        0.2      0.1                      0.2                  0.1        0.1       0.1       0.1
 SE1                            0.4        0.4      0.4                      0.5                  0.4        0.5       0.5       0.5
 SE2                            6.8        6.8      6.9                      7.2                  7.3        7.1       7.1       7.2
 SE3                            5.6        5.6      5.5                      5.9                  6.0        5.7       5.8       5.7
 SSA                            3.6        3.6      3.6                      3.6                  3.5        3.7       3.6       3.4
 SSB                            1.2        1.1      1.1                      1.1                  1.1        1.0       1.0       1.0
 SSC                            0.8        0.7      0.7                      0.7                  0.7        0.6       0.7       0.6
Total
Beneficiaries               427,351 418,258           411,465                427,873            485,122    438,619   428,079 428,467


    Source: OEI analysis of National Claims History File, July 2003




           O E I - 01 - 03 - 0 0 1 8 0     TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                     14

A    P    P      E      N       D       I   X   ~   D




                                              Calendar Year 2001                                               Calendar Year 2002
 RUG                        Q1 '01             Q2 '01    Q3 '01 Q4 '01                                Q1 '02    Q2 '02    Q3 '02    Q4 '02
 RUA                           0.6%                0.6%      0.6%  0.6%                                  0.7%      0.7%       0.7%    0.6%
 RUB                             2.4                 2.4       2.5 2.4%                                    2.6       2.7        2.9      2.8
 RUC                             0.6                 0.6       0.7 0.7%                                    0.7       0.7        0.8      0.7
 RVA                             2.9                 2.9       2.9   2.8                                   3.0       3.0        3.1      2.8
 RVB                             8.2                 8.5       8.6   8.7                                   9.2       9.4        9.7      9.7
 RVC                             1.4                 1.6       1.7   1.7                                   1.8       1.8        1.9      2.0
 RHA                             6.1                 6.1       6.0   5.9                                   6.0       5.9        5.9      5.7
 RHB                            17.5                17.8      17.9  17.8                                  17.5      17.6       17.2     17.4
 RHC                            18.8                18.8      18.9  19.3                                  19.1      19.2       19.3     19.9
 RMA                             3.3                 3.3       3.3   3.1                                   3.1       3.0        2.9      2.8

 RMB                                    9.2             8.7              8.4                  8.3          8.0       7.8       7.4       7.3
 RMC                                    5.5             5.3              5.1                  5.2          5.0       4.9       4.8       5.0
 RLA                                    0.2             0.2              0.1                  0.1          0.1       0.1       0.1       0.1
 RLB                                    0.1             0.1              0.1                  0.1          0.1       0.1       0.1       0.1
 SE1                                    0.5             0.5              0.5                  0.5          0.4       0.4       0.5       0.5
 SE2                                    7.2             7.3              7.4                  7.4          7.6       7.5       7.5       7.6
 SE3                                    5.8             5.7              5.8                  6.0          6.2       6.1       6.2       6.4
 SSA                                    3.4             3.5              3.4                  3.2          3.2       3.2       3.2       3.1
 SSB                                    0.9             0.9              0.8                  0.8          0.8       0.7       0.7       0.7
 SSC                                    0.6             0.6              0.5                  0.5          0.5       0.5       0.5       0.5
Total
Beneficiaries               481,851             459,049        438,031 453,335                        507,011    475,821   468,006 522,803

Source: OEI analysis of National Claims History File, July 2003




          O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                      15

A    P    P      E      N       D       I   X   ~   D




                                            Calendar Year 1999                                                  Calendar Year 2000
 RUG          Q1 '99                         Q2 '99    Q3 '99                      Q4 '99             Q1 '00     Q2 '00    Q3 '00    Q4 '00
 CA1          1.7%                            1.5%      1.5%                       1.5%               1.5%       1.5%      1.4%      1.4%
 CB1           1.1                             1.0       1.0                        1.0                1.0         1.1      1.0       1.0
 CC1           0.4                             0.3       0.3                        0.3                0.3         0.3      0.3       0.3
 CA2           0.3                             0.3       0.3                        0.3                0.3         0.3      0.3       0.3
 CB2           0.2                             0.2       0.2                        0.2                0.2         0.2      0.2       0.2
 CC2           0.1                             0.1       0.1                        0.1                0.1         0.1      0.1       0.1
 IA1           0.1                             0.1       0.1                        0.1                0.2         0.2      0.2       0.2
 IB1           0.2                             0.2       0.2                        0.2                0.2         0.2      0.2       0.2
 IA2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 IB2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 BA1           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 BB1           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 BA2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 BB2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 PA1           0.4                             0.3       0.4                        0.4                0.3         0.4      0.4       0.4
 PB1           0.1                             0.1       0.1                        0.1                0.1         0.1      0.1       0.1
 PC1           0.1                             0.1       0.1                        0.1                0.1         0.1      0.1       0.1
 PD1           0.3                             0.3       0.4                        0.4                0.4         0.4      0.4       0.4
 PE1           0.1                             0.1       0.2                        0.2                0.2         0.2      0.2       0.2
 PA2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 PB2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 PC2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 PD2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 PE2           0.0                             0.0       0.0                        0.0                0.0         0.0      0.0       0.0
 Other         0.1                             0.1       0.1                        0.1                0.1         0.1      0.1       0.1
Total
Beneficiaries 427,351                           418,258        411,465 427,873                        485,122    438,619   428,079 428,467
Source: OEI analysis of National Claims History File, July 2003




          O E I - 01 - 03 - 0 0 1 8 0            TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                       16

A     P    P     E      N       D       I   X    ~   D




                                              Calendar Year 2001                     Calendar Year 2002
 RUG                        Q1 '01             Q2 '01    Q3 '01    Q4 '01   Q1 '02    Q2 '02    Q3 '02    Q4 '02
 CA1                           1.3%                1.3%      1.2%     1.2%     1.2%      1.2%       1.1%    1.1%
 CB1                             0.9                 0.9       0.9      0.9      0.9       0.8        0.8      0.8
 CC1                             0.3                 0.3       0.3      0.3      0.3       0.3        0.3      0.3
 CA2                             0.2                 0.3       0.3      0.3      0.2       0.2        0.3      0.2
 CB2                             0.2                 0.2       0.2      0.2      0.2       0.2        0.2      0.2
 CC2                             0.1                 0.1       0.1      0.1      0.1       0.1        0.1      0.1
 IA1                             0.2                 0.2       0.2      0.2      0.2       0.2        0.2      0.2
 IB1                             0.2                 0.2       0.2      0.2      0.2       0.3        0.3      0.2
 IA2                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 IB2                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 BA1                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 BB1                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 BA2                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 BB2                             0.0                 0.0       0.0      0.0      0.0       0.0        0.0      0.0
 PA1                             0.4                 0.4       0.4      0.4      0.4       0.4        0.4      0.3
 PB1                             0.1                 0.1       0.1      0.1      0.1       0.1        0.1      0.1
 PC1                             0.1                 0.1       0.1      0.1      0.1       0.1        0.1      0.1
 PD1                             0.4                 0.4       0.4      0.4      0.4       0.4        0.4      0.4

 PE1                                    0.2              0.2               0.2                   0.2       0.2       0.2        0.2       0.2
 PA2                                    0.0              0.0               0.0                   0.0       0.0       0.0        0.0       0.0
 PB2                                    0.0              0.0               0.0                   0.0       0.0       0.0        0.0       0.0
 PC2                                    0.0              0.0               0.0                   0.0       0.0       0.0        0.0       0.0
 PD2                                    0.0              0.0               0.0                   0.0       0.0       0.0        0.0       0.0
 PE2                                    0.0              0.0               0.0                   0.0       0.0       0.0        0.0       0.0
 Other                                  0.1              0.1               0.1                   0.1       0.1       0.1        0.1       0.1
Total
Beneficiaries               481,851             459,049         438,031              453,335           507,011   475,821   468,006    522,803

Source: OEI analysis of National Claims History File, July 2003




          O E I - 01 - 03 - 0 0 1 8 0             TRENDS   IN THE   AS S I G N M E N T   OF   R U GS                                       17

�A    P P E N D I X ~ D
      A C K N O W L E D G M E N T S



                                   This report was prepared under the direction of Mark R. Yessian, Ph.D.,
                                   Regional Inspector General for Evaluation and Inspections in the
                                   Boston Regional Office, and Joyce M. Greenleaf, M.B.A., Deputy
                                   Regional Inspector General. Other principal Office of Evaluation and
                                   Inspections staff who contributed include:
                                   Danielle Fletcher, Project Leader

                                   Sandy Khoury, Program Specialist




     O E I - 01 - 03 - 0 0 1 8 0   TRENDS   I N T H E A S S I G N ME N T O F R U G S                  18
